15. No Waiver. The Credit Union can delay enforcing any of its rights
any number of times without losing them.
16. Statement and Notices. You will receive a statement each
month showing transactions on your account. Statements and notices
will be mailed to you at the most recent address you have given us, or
notification that your e-statement is ready will be emailed to the most
recent email address you have given us. You are responsible for notifying
the Credit Union directly of any change of mailing or email address.
17. Personal Identification Number (PIN). We will furnish you
with a Personal Identification Number (PIN). You agree to keep the
PIN secret. You also agree you won’t write the PIN on the Visa® card or
anything you keep with the Visa® card. You agree that your use of the
PIN and Visa® card in getting a cash advance or making a purchase
constitutes your signature for purposes of such transaction.
18. YOUR BILLING RIGHTS
This notice contains important information about your rights and
our responsibilities under the Fair Credit Billing Act.
Notify Us In Case of Errors or Questions About Your Bill
If you think your bill is wrong, or if you need more information about
a transaction on your bill, write us on a separate sheet at the address
listed on your bill. Write to us as soon as possible. We must hear from
you no later than 60 days after we sent you the first bill on which the
error or problem appeared. You can telephone us, but doing so will
not preserve your rights.
In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe
there is an error. If you need more information, describe the
item you are not sure about.
If you have authorized us to pay your credit card bill automatically
from your savings or checking account, you can stop payment on
any amount you think is wrong. To stop payment, your letter must
reach us three business days before the automatic payment is
scheduled to occur.

Your Rights and Our Responsibilities
After We Receive Your Written Notice

We must acknowledge your letter within 30 days, unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you
question or report you as delinquent. We can continue to bill you for
the amount you question, including finance charges, and we can apply
any unpaid amount against your credit limit. You do not have to pay
any questioned amount while we are investigating, but you are still
obligated to pay the parts of your bill that are not in question. If we
find we made a mistake on your bill, you will not have to pay any
finance charges related to any questioned amount. If we didn’t make
a mistake, you may have to pay finance charges, and you will have to
make up any missed payments on the questioned amount. In either
case, we will send you a statement of the amount you owe and the
date that it is due.

If you fail to pay the amount that we think you owe, we may report you
as delinquent. However, if our explanation does not satisfy you and
you write to us within ten days telling us that you still refuse to pay, we
must tell anyone we report you to that you have a question about your
bill. We must tell you the name of anyone we report to that the matter
has been settled between us when resolved.
Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services that you
purchased with a credit card, and you have tried in good faith to correct
the problem with the merchant, you may have the right not to pay
the remaining amount due on the property or services. There are two
limitations on this right:
1. You must have made the purchase in your home state or, if
not within your home state, within 100 miles of your current
mailing-address area.
2. The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if
we mailed you the advertisement for the property or services.
19. CURewards
• You will earn one point for each dollar in net purchases. No points
will be earned for cash advances, balance transfers or convenience checks.
• You will earn points if you remain a cardholder in good standing and
your account is maintained according to the terms of the account.
If your account is delinquent or overlimit, you will not accrue points, and we
have the option to withdraw points previously earned. Points begin
accruing again once the account is no longer delinquent or overlimit.
• Points are non-transferable and are forfeited in the event the account
is closed.
• Points earned from other bonus programs you may be enrolled in at
another institution cannot be combined with this program.
• Points earned on Visa® Signature are redeemable for travel,
merchandise and cash back rewards.
• Points earned on Visa® Platinum are redeemable for travel,
merchandise and gift card rewards.
• Please see Program Rules and Conditions for specific details on
redemption of points for travel, merchandise or cash. Program Rules
and Conditions are available by request or at www.CURewards.com.
• Points will expire four years from the end of the calendar year in 		
which they are earned, and will expire on a first-in, first-out basis
annually. (e.g. Points earned in calendar year one will expire on the
last business day of calendar year five.)

Federally insured by NCUA. Equal Housing Opportunity

12/14 M-111207

VISA® SIGNATURE AND VISA® PLATINUM
AGREEMENT AND DISCLOSURE
In this Agreement the words you and your mean each and all of those
who signed the application and any or all individuals you authorize to
use this card. Card means a Visa® credit card and any duplicates and
renewals the Credit Union issues. Account means your Visa® credit card
line or credit account with the Credit Union. Credit Union means the
Credit Union whose name appears on this application, agreement or
credit disclosure statement.
1. Using the Account. If you are approved for a Visa® account, the
Credit Union will establish a line of credit for you and notify you of
its amount when the card is sent to you. You agree not to let your
account balance exceed your approved credit limit. Each payment you
make on the account will restore your credit limit by the amount of
the payment, which is applied to the principal amount of purchases
and cash advances. You may request an increase in your credit limit
by calling 800-232-3642. The new limit must be approved by the
Credit Union. The Credit Union has the right to reduce or terminate
your credit limit at anytime.
2. Using the Card. You may use the card issued to you to make purchases,
not to exceed your available credit line on your Visa Signature Card, or
not to exceed either your available credit line or $10,000, whichever is
less, on your Visa Platinum Card in person, and by mail or telephone
from merchants and others who accept Visa cards. In addition, you
may obtain cash advances from the Credit Union, and from other
financial institutions participating in the Visa program, not to exceed
your available credit line on your Visa Signature Card, or not to exceed
either your available credit line or $5,000, whichever is less, on your
Visa Platinum Card. You will need to use your Personal Identification
Number (PIN) to obtain a cash advance from an ATM. You may not use
the card for any illegal or unlawful transaction, and we may decline
to authorize any transaction that we believe poses an undue risk of
illegality or unlawfulness.
3. Responsibility. You agree to pay all charges (purchases and cash
advances) to your account made by you or anyone who you authorized
to use your account. Your obligation to pay the amount owed on your
account continues until paid in full even though an agreement, divorce
decree or other court judgment to which the Credit Union is not a party
may direct someone else to pay the account balance. If more than one
person signed the application, each is individually responsible for all
amounts owed on the account and all are jointly responsible for all
amounts owed. This means the Credit Union can enforce this Agreement
against any of you individually or all of you together.
4. Finance Charges. Separate finance charges for purchases and
cash advances are determined by multiplying the periodic rate by the
separate average daily balances for purchases and cash advances. Each
average daily balance is determined by taking the beginning balance

(of cash advances or purchases) in your account each day, adding
any new purchases or cash advances (whichever is applicable) and
subtracting any payments or credits. The results are the daily balances.
All the daily balances for the statement cycle are added and the total
is divided by the number of days in the statement cycle to arrive at the
average daily balance for the cycle. Cash advances are always subject
to a Finance Charge from the date of the transaction.
(a) Finance Charge. The finance charge will be figured
by applying the monthly periodic rate to the average daily
balance of Purchases and Cash Advances. Your Annual
Percentage Rate (APR) is determined based on your creditworthiness and will be provided to you separately in writing
at the time your credit card is approved.
Signature APR = Prime + Margin
Prime Rate + 5.00%
Prime Rate + 6.00%
Prime Rate + 8.00%
Prime Rate + 10.00%
Prime Rate + 12.00%
Platinum APR = Prime + Margin
Prime Rate + 5.74%
Prime Rate + 5.74%
Prime Rate + 6.50%
Prime Rate + 9.00%
Prime Rate + 11.00%
Rates are variable and subject to change. Maximum APR is
18.00%. Your APR will be calculated by adding a margin from
above to the Prime Rate as correctly published in the Wall
Street Journal as of the 15th day of the month immediately
preceding the billing cycle. The Credit Union may adjust
the rate once each month effective the first day of the billing
cycle. APR changes will reflect on the following month’s
statement.
(b) How to Avoid Paying Interest on Purchases. A Finance
Charge will be imposed on Purchases posted during a Billing
Cycle when the Previous Balance is not paid in full within the
first 25 days of the Billing Cycle. A Finance Charge will also
be imposed on Purchases included in the New Balance when
the New Balance is not paid in full within 25 days after the
Closing Date.
(c) Paying Interest. A Finance Charge will be imposed on
Cash Advances from the date of the transaction to date paid.
The Finance Charge accrued on the Cash Advances between
the Closing date of the billing cycle and the date your
account is credited will appear on your next statement. There
is no time period within which to pay to avoid Finance Charges
on cash advances.

5. Monthly Payment. Each month you must pay at least the minimum
payment shown on your statement by the date specified on your
monthly statement. You may pay more frequently, pay more than the
minimum payment, or pay the Total New Balance in full. If you make
extra payments or larger payments, you are still required to make at
least the minimum payment each month your account has a balance.
Your minimum payment required each month is disclosed in the
Schumer Box information that was sent with your card, as well as on
your periodic statement under “Payment Information.” In addition, at
any time your Total New Balance exceeds your credit limit, you must
immediately pay the amount over your credit limit.
6. Default. You will be in default if you fail to make any minimum
payment or other required payment by the date that it is due. You will
be in default if you break any promise you make under this Agreement.
You will be in default if you die, file for bankruptcy or become insolvent,
that is, unable to pay your obligations when they become due. You
will be in default if you make any false or misleading statements in
any credit application or credit update. You will also be in default if
something happens which the Credit Union believes may substantially
reduce your ability to repay what you owe. When you are in default, the
Credit Union has the right to demand immediate payment of your full
account balance without notice. If immediate payment is demanded,
you will continue to pay a finance charge, at the periodic rate charged
before default, until what you owe has been paid, and any shares that
were given as security will be applied toward what you owe. To the
extent permitted by law, you will also be required to pay the Credit
Union’s collection expenses, including court costs and reasonable
attorneys’ fees.
7. Liability for Unauthorized Use. Unless you have been grossly
negligent or have engaged in fraud, you will not be liable for any
unauthorized transactions using your lost or stolen card. This limit on
liability does not apply to ATM transactions or to transactions using
your Personal Identification Number (PIN) which are not processed
by Visa®, or to commercial cards. If you are liable for unauthorized
transactions, your liability will not exceed $50. In addition, even in
these circumstances you will not be liable for unauthorized transactions
that occur after you notify us orally or in writing, of the loss, theft, or
possible unauthorized use.
8. Lost Card Notification. If you believe the Card or PIN has been lost
or stolen or that someone has transferred money from your account
without your permission, call 1-866-820-5852 or write:
Customer Service
P. O. Box 31112
Tampa, FL 33631-3112
9. Changing or Terminating Your Account. The Credit Union
may change the terms of the Agreement from time to time
after giving you any advance notice required by law. Your use of
the card after the effective date of the new terms as stated in the
notification will indicate your agreement to the change. You will have
the option to close your account if you do not agree with the new
terms. If you close your account, your minimum payments may be
affected. The change will apply only to your future transactions.
Either the Credit Union or you may terminate this Agreement at any
time, but termination by you or the Credit Union will not affect your
obligation to pay the account balance plus any finance and other

charges you owe under this Agreement. The cards you receive remain
the property of the Credit Union and you must recover and surrender
to the Credit Union all cards upon request or upon termination of this
Agreement whether by you or the Credit Union.
10. Credit Information. You authorize the Credit Union to investigate
your credit standing when opening or reviewing your account. You
authorize the Credit Union to disclose information regarding your
account to credit bureaus and creditors who inquire about your credit
standing.
11. Returns and Adjustments. Merchants and others who honor the
card may give credit for returns or adjustments, and they will do so
by sending the Credit Union a credit slip which will be posted to your
account. If your credits and payments exceed what you owe the Credit
Union, the amount will be applied against future purchases and cash
advances. If the amount is less than $5 or more than $500, it will be
refunded upon your written request. If the amount is between $5 and
$500, a credit refund check will automatically be mailed to the address
on record after two consecutive months of no account activity.
12. Foreign Transactions. Purchases and cash advances made in
foreign countries and foreign currencies will be billed to you in U.S.
dollars. The conversion rate to dollars will be made in accordance with
the operating regulations for international transactions established
by Visa® International, Inc. “Effective April 2, 2005, the exchange rate
for international transactions will be a rate selected by Visa® from the
range of rates available in wholesale currency markets, which may
vary from the rate Visa® itself receives, or the government-mandated
rate in effect for the applicable central processing date, plus 1.00%.”
Cross-Border Transaction Fee: In addition, Visa® charges the Credit
Union a Cross-Border Assessment up to 1.00% on each Transaction on
all Cross-Border Transactions regardless of whether there is a currency
conversion. For purposes of this section, “Cross-Border Transaction”
shall include both (a) Transactions initiated in a foreign country which
are subsequently settled in the United States, and (b) Transactions
initiated in the United States, but which are ultimately settled in a
country outside of the United States. The Credit Union will assess these
fees to you to reimburse it for the fee it is required to pay for each of
your Transactions subject to these terms. The Cross-Border Transaction
Fee will be shown separately on your periodic billing statement.
The Currency Conversion Fee, if it applies to the transaction, will be
included in the Transaction amount posted on your statement.
13. Merchant Disputes. The Credit Union is not responsible for the
refusal of any merchant or financial institution to honor the card. The
Credit Union is subject to claims and defenses (other than tort claims)
arising out of goods or services you purchase with the card if you have
made a good faith attempt but have been unable to obtain satisfaction
from the merchant or service provider, and (a) your purchase was
made in response to an advertisement the Credit Union sent or
participated in sending to you; or (b) your purchase cost more than
$50 and was made in your state or within 100 miles of your home.
14. Effect of Agreement. This Agreement is the contract which
applies to all transactions on your account even though the sales,
cash advances, credit or other slips you sign or receive may contain
different terms. You agree to all the terms and charges contained in
the “Credit Disclosures.”

